Department of Homeland Security
   Ofﬁce of Inspector General

             Use of DHS Purchase Cards
 





OIG-11-101                                  August 2011
                                                              Office of
                                                                     ofInspector
                                                                        Inspector General

                                                              U.S.
                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528
                                                              Washington, DC 20528




                                                              Homeland
                            AUG 05 2011
                            AUG 0 5 2011

                                                              Security
                                          Preface

The Department of Homeland Security (DHS) Office of       of Inspector General (OIG) was
established by the Homeland Security ActAct of2002                   107-296) by amendment
                                            of2002 (Public Law 107-296)
to the Inspector General
                 General Act
                          Act of 1978.
                                 1978. This
                                        This is
                                              is one
                                                 one of
                                                     of aa series
                                                           series of
                                                                  of audit,
                                                                     audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
                                                                                  economy;
                              within the department.
efficiency, and effectiveness within

This report addresses the strengths and weaknesses of the department's management
                                                                          management of  of
                              It
                  program. It is based on interviews with
the purchase card program.       is based on interviews with employees  and officials of
relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have
office,      have been
                   been discussed
                         discussed in
                                    in draft
                                       draft with
                                             with those
                                                   those responsible
                                                         responsible for
                                                                      for implementation.
                                                                           implementation. We
      this report
trust this report will
                  wil result
                       result in
                               in more
                                  more effective, efficient,
                                                  efficient, and
                                                             and economical
                                                                 economical operations.
                                                                              operations. We


                                        ~:i~
express our appreciation to all of those who contributed to the preparation of this report.

                                        ~:I~
                                       Anne L. Richards
                                       Assistant Inspector General for Audits
Table of Contents/Abbreviations
 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................3 


     DHS Post Payment Audit Review Program...................................................................3 


     DHS Manual and Component Guidance........................................................................8 


     Actions Taken by OCFO ...............................................................................................9 


     Recommendations........................................................................................................11 


     Management Comments and OIG Analysis ................................................................11 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................14 

     Appendix B:           Management Comments to the Draft Report .......................................15 

     Appendix C:           Workflow - DHS Purchase Card Post Payment Audit Process ...........18 

     Appendix D:           Purchase Card Transactions with Insufficient Documentation ............19 

     Appendix E:           Purchase Card Categories of Transaction Definitions .........................21 

     Appendix F:           OIG Data-Mining Process....................................................................22 

     Appendix G:           Major Contributors to this Report ........................................................25 

     Appendix H:           Report Distribution ..............................................................................26 


Abbreviations
     AO                    Approving Official             

     CBP                   Customs and Border Protection 

     CH                    cardholder            

     CIS                   Citizenship and Immigration Services
 

     DCFO                  Deputy Chief Financial Officer 

     DHS                   Department of Homeland Security 

     FAM 450               Financial Audit Manual Section 450 – Sampling Control Test
 

     FY                    fiscal year           

     GAO                   Government Accountability Office 

     ICE                   Immigration and Customs Enforcement
 

     MCC                   Merchant Category Code 

     OCFO                  Office of the Chief Financial Officer 

     OIG                   Office of the Inspector General 

     OMB                   Office of Management and Budget 

     TSA                   Transportation Security Administration
        

     USCG                  U.S. Coast Guard 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Department of Homeland Security’s purchase card program
                provides an efficient, low-cost procurement and payment
                mechanism to acquire goods and services. In fiscal year 2010, the
                department made about 1.2 million purchases valued at about
                $514 million for goods and services using purchase cards.
                Although purchase card use does reduce administrative
                procurement costs, the risk of inappropriate use can increase when
                effective internal controls are not in place. We performed this
                audit to determine whether DHS has internal controls in place to
                ensure that purchase cards are used for their intended purpose.

                The department generally had an effective internal control
                framework developed, but it needs to improve specific internal
                control procedures to mitigate the inherent risks associated with
                purchase card use. The department’s post payment audit process
                did not ensure that component personnel were meeting minimum
                internal control requirements established by the Office of
                Management and Budget. Nor did the process effectively target
                high-risk transactions for review. Ninety-three percent of the
                purchase card transactions we reviewed did not fully comply with
                the Office of Management and Budget’s requirements, and the
                department’s purchase card manual and components’ guidance
                were incomplete and inconsistent. As a result, the department
                cannot be sure that purchase cards are always used for their
                intended purpose. Based on our audit, the department’s Office of
                the Chief Financial Officer has initiated corrective actions to
                improve internal controls over the purchase card program.

                We are making three recommendations that when implemented
                will improve the Department of Homeland Security’s internal
                controls and oversight of its purchase card program. The Chief
                Financial Officer agreed with our recommendations and initiated
                corrective actions.




                           Use of DHS Purchase Cards 


                                    Page 1
 

Background
             Purchase cards provide an efficient, low-cost procurement and
             payment mechanism that eliminates the need for paper purchase
             orders, expedites vendor payments, and provides an audit trail.
             Purchase cards are the preferred method to purchase goods and
             services under the micropurchase limit of $3,000. A component’s
             Head of the Contracting Activity may also authorize purchases
             over the micropurchase limit. In fiscal year (FY) 2010, the
             Department of Homeland Security (DHS) authorized about 10,900
             employees to use purchase cards, and the cardholders made
             approximately 1.2 million purchases valued at about $514 million.

             Federal Acquisition Regulation Part 13, Simplified Acquisition
             Procedures, codifies the policies and procedures for using purchase
             cards to acquire supplies and services under the simplified
             acquisition threshold. Office of Management and Budget (OMB)
             Circular A-123, Appendix B, Improving the Management of
             Government Charge Card Programs, provides guidance to
             agencies for maintaining internal controls that reduce the risk of
             fraud, waste, and error in purchase card programs.

             The department’s Office of the Chief Financial Officer (OCFO)
             established the Bank Card Program Office to provide department-
             wide policy and oversight of the purchase card program. This
             program office issued the DHS Purchase Card Manual to establish
             purchase card policies and procedures. It also authorized certain
             components to maintain their own guidance and use the DHS
             manual as overarching policy. The department program
             coordinator is responsible for the centralized DHS online purchase
             card payment process.

             The program coordinator has direct responsibility for the
             department’s purchase card program, while components’
             organizational program coordinators (also known as component
             coordinators) oversee the program within their organizations. The
             program coordinator monitors component compliance with
             departmental policies and procedures. The program coordinator
             tests the effectiveness of internal controls by monitoring
             transaction data provided by the bank and through the components’
             monthly post payment audit review submissions. Component
             coordinators oversee their approving officials. Approving officials
             are responsible for ensuring that purchases made by individual
             cardholders are in accordance with applicable regulations, policies,
             and procedures.


                        Use of DHS Purchase Cards 


                                 Page 2

                    Although purchase cards provide an efficient method to purchase
                    goods and services, fraudulent, improper, or abusive purchases are
                    inherent risks in every purchase card program. Fraudulent
                    purchases include purchases of goods or services that are
                    unauthorized or acquired for personal use. Improper purchases
                    include purchases of goods or services intended for government
                    use but not permitted by law or regulation. Abusive purchases are
                    purchases for authorized goods or services, but at terms that are
                    excessive, are of questionable government need, or both. These
                    inherent risks generally occur when there is insufficient adherence
                    to internal control policies and procedures.

Results of Audit
     DHS generally had an adequate framework for internal controls to manage its
     purchase card program. However, the department needs to improve its
     implementation of some internal controls to mitigate the inherent risks associated
     with purchase card use. The department needs to strengthen its post payment
     audit process to ensure that component personnel are complying with appropriate
     purchase card controls, and needs to ensure that the process identifies and tests
     high-risk transactions. Department personnel did not verify the results of
     component reviews and did not effectively target high-risk transactions for review.
     Of the transactions we reviewed, 93% did not comply with at least one of the
     internal control elements based on OMB requirements. Additionally, the
     department’s Purchase Card Manual and components’ guidance were incomplete
     and inconsistent. As a result, the department cannot be sure that purchase cards are
     always used for their intended purpose. In response to our audit, the DHS OCFO
     has initiated corrective actions to improve the internal controls over the purchase
     card program.

     DHS Post Payment Audit Review Program
            The Chief Financial Officer implemented the Post Payment Audit
            Procedures for Purchase Cards Program (post payment audit program) as a
            control to monitor purchase card use. Component coordinators are
            required to examine cardholders’ transactions and supporting
            documentation, and then report the results of their reviews to the
            department program coordinator. However, department personnel did not
            independently verify the results of the reviews. Additionally, the post
            payment audit program did not target high-risk transactions.

                    Supporting Documentation

                    Under the post payment audit program, the program coordinator
                    provides a randomly selected sample of purchase card transactions
                    to each component coordinator to test the effectiveness of internal
                                Use of DHS Purchase Cards 


                                         Page 3

      controls. Cardholders are required to provide supporting
      documentation for the sampled transactions to the component
      coordinators to review and validate the transactions. Based on
      OMB Circular A-123 guidance, the department developed
      requirements within the DHS Post Payment Audit Procedures for
      Purchase Card manual that appropriate supporting documentation
      should contain evidence to show the following:

             Legitimate government need for the goods or service
             Screening for required vendors
             Independent receipt and acceptance
             Establishment of accountability over property
             Prior approval in writing
             Documentation and invoice dates that match purchase dates
             Disputes with the vendor handled promptly
             Freight costs in excess of $100 supported by the carrier’s
             invoice
             Purchases that do not exceed the micropurchase threshold

      Component coordinators provide the results of their reviews, along
      with the supporting documentation, to the department’s program
      coordinator. (See appendix C for a workflow of the post payment
      audit process.)

      We analyzed 75 of the 450 transactions in the department’s post
      payment audit review covering July to November 2009 to evaluate
      the effectiveness of this internal control. We determined whether
      the transactions had adequate supporting documentation to meet
      OMB purchase card requirements. We found that 67 of the 75
      transactions (89%) did not comply with at least one of the internal
      control elements based on OMB requirements, as shown in table 1.

Table 1. Percentage of Transactions With Insufficient Documentation

                Total Transactions   Transactions With
 Component        Reviewed per     Insufficient Supporting          %
                   Component           Documentation
     CBP                15                    15                   100%
     CIS                15                    12                   80%
     ICE                15                    13                   87%
     TSA                15                    14                   93%
    USCG                15                    13                   87%
    Total               75                    67                   89%

      (See appendix D for more detail.)

                 Use of DHS Purchase Cards

                          Page 4
Customs and Border Protection (CBP), Citizenship and
Immigration Services (CIS), and Transportation Security
Administration (TSA) component coordinators originally reported
that all of their transactions had supporting documentation and met
OMB requirements. However, our review showed that 15 of 15,
12 of 15, and 14 of 15 reports, respectively, did not meet OMB
requirements. Immigration and Customs Enforcement (ICE)
originally reported that 7 of its transactions did not have sufficient
supporting documentation, but we determined that 13 of 15 did not
meet OMB requirements. The U.S. Coast Guard (USCG) did not
meet the reporting deadline for this post payment audit review
period. When USCG provided the post payment audit reports, 13
of the 15 transactions did not meet OMB requirements.

The post payment audit review program was not an effective
internal control to mitigate the inherent risks associated with
purchase card use. OCFO personnel attributed this to the
department program office not having sufficient resources to
review the supporting documentation and validate the reports.

Sampling Methodology

Since February 2009, the department has been coordinating with a
contractor to develop lists of purchase card transactions for review.
The contractor has been using a random sampling methodology
based on the Government Accountability Office (GAO) Financial
Audit Manual Section 450 – Sampling Control Test (FAM 450). On
a monthly basis, the contractor provided a list of 45 purchase card
transactions from each major component’s previous month’s
transactions to the program coordinator. However, these simplified
random sampling techniques did not effectively target high-risk
transactions for the post payment audit reviews.

We reviewed four of the contractor’s sampling methodologies used
for randomly selecting the purchase card transactions for the post
payment audit reviews. We compared the sampling techniques with
GAO’s FAM 450, and found that the sampling techniques did not
provide sufficient guidance or documentation on sample selection.
The post payment audit transactions selected for review did not
address many of the control test requirements, and generally were
low-risk, minimal-dollar-value transactions such as the following:

       Make a car key in the amount of $5.17
       FedEx Services in the amount of $6.83
       Purchase a wireless door chime in the amount of $28.97
       Purchase brown paper towels in the amount of $40.10

           Use of DHS Purchase Cards 


                    Page 5
 

Overall, using only simplified random sampling techniques to
select purchase card transactions for audit limited the effectiveness
of the post payment audit program. A more effective approach
would be to add data mining techniques to target high-risk
purchase card transactions.

Data Mining

Data mining is designed to identify potentially fraudulent,
improper, and abusive purchase card transactions. Data mining
searches the data to find transactions or patterns of activity that
exhibit predetermined characteristics, associations, or anomalies
between different pieces of information.

The program coordinator’s access to the bank vendor’s purchase
card data system allowed us to pull raw transaction data from July
1, 2009, to May 1, 2010. We pulled data for CBP, CIS, ICE, TSA,
and USCG, the five largest DHS components using purchase cards.
The transaction purchase card data consisted of more than 900,000
transactions valued at more than $392 million. Using data-mining
techniques, we identified 70,503 potentially high-risk transactions
valued at $29,594,948, including the following:

       Potential split purchases to circumvent micropurchase or
       other single-purchase limits;
       Blocked or recommended blocked Merchant Category
       Code (MCC) purchases for restricted goods or services; and
       Purchases made outside normal business hours (weekends
       and holidays).

(For more information on transaction definitions and the data-
mining process, see appendixes E and F.)

From these potentially high-risk transactions, we selected a
judgmental sample based on purchased goods and services,
cardholder locations, purchase times and dates, and transaction
dollar amounts. We reviewed 201 transactions valued at more than
$184,000 for purchases made by 21 cardholders assigned to five
components in four different locations, as shown in table 2.




           Use of DHS Purchase Cards 


                    Page 6
 

Table 2. Targeted High-Risk Purchase Card Transactions

                              Number of         Number of
 Locations   Component                                        Dollar Totals
                             Cardholders       Transactions

  Boston       USCG                   4            45         $35,509.95
 Chicago         CIS                  2            16          $9,738.15
 Chicago        TSA                   2            17          $3,801.92
   DC           CBP                   4            35         $60,550.40
   DC           ICE                   3            15         $31,732.47
  Miami         CBP                   1            10          $4,830.49
  Miami        USCG                   5            63         $38,128.61
 TOTALS                               21           201        $184,291.99

      We found that 187 of the 201 transactions (93%) did not comply
      with at least one of the internal control elements based on OMB
      requirements. For example:

             Forty-two percent did not provide any evidence that funds
             were available prior to the purchases.
             Sixty-nine percent did not provide any evidence that an
             independent third party signed for the merchandise or
             service upon delivery.
             Thirty-two percent did not provide any evidence the
             component established any accountability over property
             purchased.
             Forty-one percent did not provide any evidence of approval
             by the approving official.

      We identified three transactions valued in excess of $1,000 for
      items that component personnel could not account for or locate.
      The cardholder purchased these items at a store, took possession of
      the items, and transported the items. There was no evidence in the
      transaction file of independent receipt and acceptance by a third
      party. OMB Circular A-123 specifically requires supporting
      documentation as evidence of independent receipt and acceptance
      of goods by someone other than the cardholder.

      We expanded our review of this cardholder’s transactions and
      identified numerous additional questionable split purchase
      transactions designed to circumvent the simplified single-purchase
      acquisition threshold of $3,000. Federal Acquisition Regulations
      require that appropriate acquisition competition take place when


                 Use of DHS Purchase Cards 


                          Page 7
 

           the proposed contract exceeds $3,000. We did not find evidence of
           approved waivers or required presolicitation notices.

           The department generally had effective internal controls in place to
           manage its purchase card program. However, the post payment
           audit process did not ensure that components were meeting OMB’s
           purchase card requirements. Department personnel did not verify
           the results of post payment audit reviews, and the program did not
           effectively target high-risk transactions for review. As a result, the
           department cannot be sure that purchase cards are always used for
           their intended purpose.

DHS Manual and Component Guidance

    OMB Circular A-123, Appendix B, Improving the Management of
    Government Charge Card Programs, established standard minimum
    requirements for government charge card programs that must be included
    in internal agency regulations, procedures, and training materials. Some
    components use the DHS Purchase Card Manual as their primary
    guidance, and DHS has authorized others to maintain their own guidance
    and use the DHS manual as overarching policy. However, the DHS
    manual and current components’ guidance are inconsistent and do not
    address all OMB regulatory requirements.

    We compared OMB purchase card requirements with the DHS Purchase
    Card Manual, and found numerous requirements not addressed. For
    example, the DHS Purchase Card Manual did not require -

           Program participants to certify that they have received purchase
           card training, understand the regulations and procedures, and know
           the consequences of inappropriate actions;
           Purchase card managers to communicate the agency’s policy on
           when referral to an agency OIG is appropriate or required; or
           Purchase card managers to check the productivity and sales refund
           deals offered by charge card vendors in comparison with other
           government-wide charge card contracts to ensure a competitive
           offer.

    Many of the same OMB requirements were also missing from
    components’ guidance. For example, various components’ guidance did
    not communicate any policy on when referral for fraud to an agency OIG
    is appropriate or required. Specifically:




                      Use of DHS Purchase Cards 


                               Page 8

            CBP guidance requires referral only to Human Resources
            Management, Office of General Counsel, the cardholder’s
            supervisor, and/or the organizational program coordinator.
            CIS guidance requires referral only to the Chief of the Financial
            Management Division.
            ICE guidance requires referral only to the organizational program
            coordinator, Human Resources, Office of General Counsel, and the
            cardholder’s supervisor.
            TSA guidance requires referral only to the organizational program
            coordinator.
            USCG guidance does not address where employees are to refer
            allegations of purchase card fraud.

     OMB also requires that cardholders obtain approval from their approving
     official prior to making purchases. The DHS Purchase Card Manual was
     unclear on who should provide this prior approval. On one page, the
     manual required approval “by someone other than the purchase cardholder,”
     but on another it required the cardholder to “receive written authorization
     from his/her Approving Official to make the prospective purchase.” ICE’s
     and USCG’s guidance did not require prior approvals by an approving
     official before purchase.

     Cardholders generally obtained some form of written approval prior to
     making a purchase even though the DHS manual and component’s
     guidance are unclear. However, our review of the 276 purchase card
     transactions found that someone other than a designated approving official
     approved 36%, and 5% had no approval.

     As a result of our audit, the department revised the DHS Purchase Card
     Manual on August 25, 2010, to include specific guidance requiring that
     “all DHS employees shall report suspected purchase card fraud or misuse
     to the Office of Inspector General.” The department also clarified the
     manual to direct cardholders to “ensure written approval is obtained by
     their immediate supervisor and their Approving Official prior to incurring
     each purchase card transaction.” However, since not all of the OMB
     requirements are addressed in either the DHS manual or components’
     guidance, the department cannot be sure that cardholders are aware of all
     purchase card requirements or that purchase cards are used for their
     intended purpose.

Actions Taken by OCFO
     We discussed the results of our work with OCFO officials. As a result,
     OCFO has initiated the following corrective actions:



                       Use of DHS Purchase Cards 


                                Page 9

       Conducted a comprehensive review of the DHS Purchase Card
       Manual, comparing it with OMB Circular A-123, Appendix B, to
       identify areas for improvement, gaps in current processes, and
       deficiencies that may allow improper use of a government
       purchase card to take place;
       Conducted a comprehensive review of eight component purchase
       card policy manuals, comparing each with the DHS Purchase Card
       Manual to identify areas for improvement, gaps in current
       processes, and deficiencies that may allow improper use of a
       government purchase card to take place;
       Conducted a comprehensive review of selected component
       purchase card transactions to determine adherence to federal and
       DHS policy and detect instances of improper use of a government
       charge card; and
       Used data mining techniques to identify questionable purchase
       card transactions, and required components to verify and validate
       each identified transaction.

OCFO stated that the steps taken above have enabled it to update purchase
card policies and create Mission Action Plans to resolve identified
deficiencies. OCFO intends to issue a final report containing details of the
reviews, along with considerations for improving each manual, to
components.

OCFO plans to establish a Bank Card Assessment Team to implement and
monitor sustainable management controls covering the government charge
card program. OCFO states that the Bank Card Assessment Team will
serve as the oversight body for the department’s Bank Card Program and
will ­

       Develop guidance for components to implement, assess, report, 

       and monitor management controls surrounding travel, purchase, 

       and fleet cards. 

       Perform post payment audits of randomly selected component
 

       transactions and report findings to the DHS Chief Financial Officer. 

       Provide government charge card training to the DHS community.
 

       Provide oversight for determining the level, effort, and resources 

       needed for efficiently managing the department’ Bank Card
       Program. 

       Brief the Senior Management Council, Chief Financial Officer, 

       Senior Assessment Team, and other DHS senior leadership on 

       various bank card topics. 


Also, OCFO states that it will continue to conduct quality assurance
sampling for each post payment audit review. This will include drafting a
formal quality assurance plan and revised post payment audit standard
                   Use of DHS Purchase Cards 


                            Page 10
 

operating procedures. OCFO will also continue to use data mining to
improve the review of transaction samples via its post payment audit
process. OCFO plans to draft a data mining plan that incorporates OIG’s
data mining techniques to strengthen processes currently in place.

Recommendations
       We recommend that the DHS Office of the Chief Financial Officer:

       Recommendation #1: Review post payment audit review
       transactions and verify that all reports and their supporting
       documentation are valid and sufficient.

       Recommendation #2: Develop data mining techniques to target
       high-risk transactions for the post payment audit review program.

       Recommendation #3: Update the DHS Purchase Card Manual to
       address all OMB Circular A-123 purchase card requirements, and
       direct all components to similarly update their guidance.


Management Comments and OIG Analysis
The Deputy Chief Financial Officer (DCFO) provided comments on a
draft of this report. A copy of the comments in their entirety is included in
appendix B.

The DCFO took exception to our discussion of the post payment audit
methodology and stated that OCFO, not contractors, is responsible for
developing the lists of purchase card transactions for review. We
recognize that OCFO is responsible for developing the list of purchase card
transactions for review. However, OCFO used contractors to apply
sampling techniques to develop the lists of purchase card transactions.

The DCFO also stated that our report oversimplifies the department's
sampling methodology. We recognize that OCFO is applying GAO’s
FAM 450 sampling methodology. However, these simplified random
sampling techniques did not effectively target high-risk transactions in the
purchase card program.

The DCFO concurred with all three recommendations in this report.

       Management Comments to Recommendation #1

       The DCFO concurred with this recommendation, agreeing that it is
       imperative to ensure that payments are valid and sufficient. The

                   Use of DHS Purchase Cards 


                            Page 11

DCFO indicated that it made several changes to the purchase card
program. Using the 27-attribute checklist requirements as a guide,
the DCFO stated that it developed and delivered training to
components to reinforce documentation retention, signature
approval, and internal controls compliance for the purchase card
transactions. The DCFO indicated that it also added an additional
review requirement to the post-payment audit process.

OIG Analysis: The DCFO’s actions are responsive to the
recommendation. The recommendation is resolved, but will
remain open until the DCFO provides -

       The December 2010 training developed and delivered to
       components based on the 27-attribute checklist requirement.

       The March 2011 revised post-payment audit standard
       operating procedure that includes the 27-attribute checklist,
       the Purchase Card Transaction Worksheet, and the second-
       level review requirements which also clarifies transaction
       approval authority.

Management Comments to Recommendation #2

The DCFO concurred with this recommendation, noting that it has
piloted its first review of high-risk transactions. The DCFO is
incorporating lessons learned from this pilot and our draft report
into the development of a data-mining program to identify high-
risk transactions for future post-payment audit reviews.

OIG Analysis: These DCFO actions are responsive to the
recommendation. However, this recommendation will remain
open and unresolved until the DCFO provides copies of its
findings from the pilot program and detailed documentation
supporting the development of their internal data-mining program.

Management Comments to Recommendation #3

The DCFO concurred with this recommendation. The DCFO did
revise the DHS Purchase Card Manual in August 2010 based on
preliminary OIG recommendations. The DCFO states that OCFO
is revising the DHS Purchase Card Manual to address all of OMB
Circular A-123, appendix B requirements. The DFCO plans to
direct the components to update guidance to make the necessary
revisions into the manuals.



           Use of DHS Purchase Cards 


                    Page 12

OIG Analysis: These DCFO actions are responsive to the
recommendation. The recommendation is resolved, but will
remain open until the DCFO provides -

      The revised Purchase Card Manual incorporating all of
      OMB Circular A-123, appendix B requirements, which is
      planned to be complete by September 30, 2011; and

      Copies of the management memo directing all components
      to update their guidance to incorporate these revisions into
      their manuals, as well as confirmation that components
      have made all the required updates.




          Use of DHS Purchase Cards 


                   Page 13
 

Appendix A
Purpose, Scope, and Methodology

                   We performed an audit of the use of DHS purchase cards to
                   determine whether DHS had internal controls in place to ensure
                   that purchase cards are used for their intended purpose. We
                   assessed whether guidance was complete and consistent, the DHS
                   post payment audit review process was effective, and how system
                   use could be improved.

                   We performed this audit at DHS headquarters and the component
                   headquarters of CBP, CIS, ICE, TSA, and USCG in the
                   Washington, DC, area, as well as with field components at the
                   following locations: CBP in Miami, FL; CIS in Chicago, IL; ICE
                   in Washington, DC; TSA in Chicago, IL; USCG in Boston, MA,
                   and Ft. Lauderdale and Miami, FL. We interviewed various
                   officials in the DHS Office of the Chief Financial Officer, the
                   Financial Policy and Review Branch, and the Purchase Card
                   Program Office, as well as components organizational program
                   coordinators, approving officials, and cardholders at five
                   components.

                   We reviewed and compared the various federal acquisition
                   regulations pertaining to purchase card use, and compared CBP,
                   CIS, ICE, TSA, and USCG components’ purchase card guidance
                   against the DHS Purchase Card Manual (October 2009). We
                   conducted data mining analysis using indicators for high-risk
                   transactions and possible fraud to review more than 900,000
                   purchase card transactions valued at more than $392 million.

                   We conducted fieldwork for this performance audit between June
                   2009 and September 2010 pursuant to the Inspector General Act of
                   1978, as amended, and according to generally accepted
                   government auditing standards. Those standards require that we
                   plan and perform the audit to obtain sufficient, appropriate
                   evidence to provide a reasonable basis for our findings and
                   conclusions based upon our audit objectives. We obtained an
                   understanding of the internal controls that were significant within
                   the context of our audit objective. We evaluated the design and
                   operating effectiveness of these internal controls to determine the
                   reliability of information used in performing these significant
                   controls. We believe that the evidence obtained provides a
                   reasonable basis for our findings and conclusions based upon our
                   audit objectives.




                              Use of DHS Purchase Cards 


                                       Page 14
 

Appendix B
Management Comments to the Draft Report



                                                                               u.s. Dcpartmcnt or IlGmeland Scc.. rily
APP B BookMark                                                                 Washington, DC 20528




                                                  June 13,2011


       MEMORANDUM FOR:               Anne L. Richards
                                     ~ssist'ant
                                              Inspector General for Audits

        FROM:                        ~~
                                     D:~~/&:l:f Financial Officer
        SUBJECT:                     Use o/DHS Purchase Cards, G1G Projecl No. 09-/73-AUD-DHS


       Thank you for the opportunity to review and comment on this draft report. The U.S.
       Department of Homeland Security (DHS) appreciates the Office oflnspector General's (OIG)
       work conducting its review of the DHS Purchase Card program

       I am pleased to note the OIG fOWld the Department generally has an effective internal control
       framework for managing its purchase card program. The report also recognizes many of the
       positive actions the Office of the Chief Financial Officer (OCFO) initiated during the audit,
       some as long as nearly a year ago, to improve the purchase card program internal controls.

       1 would, however, like to address a few items in the OIG report that require clarification.
       I am concerned that the OIG's report characterized a transaction as non-compliant if i!!!X one of
       thc 27 attributes tested for each transaction was not met. In JWlC 2009, the purchasc card
       program transitioned to a new Government charge card vendor, and as a result, the Department
       focused on resolving transitional issues and ensuring continued mission support and program
       operations. Once day-to-day operations stabilized, OCFO conducted additional post-payment
       audit work in August 20 10 to detennine whether the post-payment audit results had improved
       since the OIG perfonned its testing. In August 2010, OCFO tested 75 randomly selected
       purchase card transactions using the same 27 altributes in the OIG's audit. Of the total number
       of attributes tested, 92 percent of attributes passed.

       The OIG's portrayal of our post-payment audit methodology does not accurately reflect DHS
       sampling techniques. First, OCFO, not contractors, is responsible for developing the lists of
       purchase card transactions for review. Second, the OlG report over simplifies the Department's
       robust and efficient sampling methodology, which is consistent with the U.S Government
       Accountability Office (GAO), Financial Audit Manual (FAM), and Section 450.

       The OCFO will continue several activities to further improve our assessmem of key controls
       within the purchase card program. For example, we arc developing a crosswalk of pending
       Senate Bill S.300, "Government Charge Card Abuse Prevention Act 0/2011, .. to OMB A-123,




                                         Use of DHS Purchase Cards 


                                                     Page 15
 

Appendix B
Management Comments to the Draft Report




        Appendix B and the Dl-IS Purchase Card Manual. We are also testing the design and
        effectiveness of key controls at several levels, to include organization program coordinators
        (OPCs) and program managers, and will use our findings to implement new or stronger
        controls. In addition, DBS will review roles and responsibilities of financial management and
        procurement functions to provide stronger oversight to prevent fraud, waste, and abuse.

        Your report contained three recommendations. As discussed below, DHS concurs with all three
        recommendations. Specifically, you recommended the OCFO:

        Recommend:ltion #1: Review post-payment audit review transactions and verify that all
        reports and their supporting documentation are valid and sufficient.

        Man:lgement Response: Concur. DHS agrees that it is imperative to ensure payments are
        valid and sufficient. DHS takes this responsibility seriously and will continue to exercise a
        robust post-payment audit review process. To strengthen our existing process, we have already
        taken the following actions:

           •   During Fiscal Year (FY) 2010, the OCFO conducted a quality assurance review of the
               FY 2010 third quarter post-payment audit sample. We are currently conducting a
               second quality assurance review covering samples from September through December
               2010.

           •   In November 2010, the OCFO, in collaboration with the Office of the Chief
               Procurement Officer and Office of the Chief Administrative Officer, established a
               Bankcard Assessment Team (BAT). The BAT is comprised of senior leaders in the
               Department and from the Components, and it meets monthly to improve management
               controls for the Department's charge card programs.

           •   In December 2010, using the 27-attribute checklist requirements as a guide, the OCFO
               developed and delivered training to Components to reinforce documentation retention,
               signature approvnl, and intemal controls compliance for the purchase card transactions.
               TIle Department is committed to providing additional training to ensure each OPC,
               approving official, and cardholder understands the controls for the program.

           •   In March 2011, the OCFO implemented the use of a Purchase Card Transaction
               Worksheet (pCnV), which is a checklist of the attributes used at the cardholder level.
               Cardholders will complete this worksheet prior to making purchases, which will help to
               ensure compli:mce with OMB Circular A-123, Appendix B and will further strengthen
               intemal controls compliance within the post-payment audit process.

           •   In March 2011, OCFO added an additional review requirement to the post-payment
               audit process. Each month, before submitting responses, Components conduct a second,
               independent level of review of post-payment audit transactions to verify their validity
               and completeness.




                                                                                                2




                                        Use of DHS Purchase Cards 


                                                   Page 16
 

Appendix B
Management Comments to the Draft Report




             •   In March 2011, OCFO revised the post-payment audit standard operating procedure 10
                 include the 27-attribute checklist, the PCTW, and the second-level review requirements.
                 TIle revision also clarified transaction approval authority.

          Based on the aforementioned corrective actions already taken, OCFO considers this
          recommendation closed.

          Rccommcnd:ltion #2: Develop data-mining techniques to target high-risk transactions for the
          post-paymcnt audit review program.

          Managcmcnt Rcsponsc: Concur. \\le piloted our first review of high-risk and questionable
          transactions. We are incorporating lessons learned from the pilot and the OIG draft report into
          the development of a rohust data-mining program to identify high-risk and questionable
          transactions for future post-payment audit reviews.

          Recommcndation #3: Update the DHS Purchase Card Manual to address all OMB Circular
          A-123 purchase card requirements, and direct all Components to similarly update their
          guidance.

          Manngcmcnt Rcsponsc: Concur. We revised the manual in August 20ID based on preliminary
          recommendations from the OIG, as acknowledged in the draft report. We are currently revising
          the manual to incorporate rebate and reflUld management to address all ofOMB Circular A-123,
          Appendix B requirements by September 30,2011 and will direct the Components to update
          their guidance to incorporate the revisions into their manuals.

          Once again, thank you for the opportunity to review :U1d conunent on this draft report.
          Teclmical comments have been provided under separate cover. We look forward to working
          with you on future Homeland Security issues.




                                                                                                   3




                                       Use of DHS Purchase Cards 


                                                   Page 17
 

Appendix C
Workflow - DHS Purchase Card Post Payment Audit Process



        APP C Bookmark




Source: DHS OIG generated based on DHS Post Payment Audit Procedures for Purchase Cards (April 2009)




                                     Use of DHS Purchase Cards 


                                              Page 18
 

Appendix D
Purchase Card Transactions with Insufficient Documentation

We examined the department’s post payment audit review from July to November 2009.
We analyzed 75 of 450 reported transactions, totaling $24,649, to determine whether the
transactions contained information in the following 27-point internal control checklist
based on OMB requirements.

1    Name of Cardholder (CH)
2    Approving Official (AO)
3    Merchant Name
4    Transaction Date
5    Transaction Amount
6    Item or Service Purchased
7    Does the documentation include a Requisition, Purchase Card worksheet, or other
     written requirement?
 8   Did the AO approve for the purchase?
 9   Date of Approval by AO (or other official).
10   Date Ordered or Date of Purchase.
11   Did CH provide evidence the procurement was approved prior to the purchase?
12   Did the CH provide evidence that funds were available prior to the purchase?
13   If the purchase is potentially inappropriate for government use (for example,
     expensive artwork, iPods), is there documented government need for the purchase?
14   Does the amount on the invoice match the amount on the requisition, worksheet, or
     other written requirement?
15   What is the invoice date?
16   What is the date of shipment?
17   Is the invoice date prior to the date of shipping? (Per DHS Manual, no billing for
     the merchandise should occur before shipping, except for training and
     subscriptions.)
18   Was sales tax charged?
19   If sales tax was charged, was a credit or refund received?
20   Is there evidence the CH found unauthorized charges (other than sales tax)?
21   If there is evidence the CH found unauthorized charges, did CH dispute the
     transaction(s) within 60 days?
22   Did the CH provide evidence the purchase was from the required sources of supply
     or service?
23   Did the CH provide evidence an independent third party signed for the merchandise
     or service?
24   Was there a separate carrier's invoice for freight greater than $100?
25   Did the CH provide evidence the component established accountability over
     property?
26   Is there evidence the CH or AO authorized or allowed someone else to use the card?
27   Is there evidence the CH split the purchase? If yes, explain in remarks section.

Table 3 provides details on eight elements of required information missing from
cardholder supporting documentation from the 75 reports we analyzed.

                                 Use of DHS Purchase Cards

                                          Page 19
Appendix D
Purchase Card Transactions With Insufficient Documentation


Table 3. Number of Files With Varying Types of Insufficient Documentation




                                                                     Verified Funds Availability




                                                                                                                                                                                                        Established Accountability
                                                                                                                                                   Used Required Sources of



                                                                                                                                                                              23. Whether Receipt Was

                                                                                                                                                                              Independent Third Party
                                                                      12. Whether Cardholder




                                                                                                                                                   22. Whether Cardholder




                                                                                                                                                                                                         25. Whether Cardholder
                      9. Date of Approval *




                                                                                                                            16. Date of Shipment
                                              10. Date of Purchase




                                                                                                      15. Date of Invoice
                                                                          Prior to Purchase




                                                                                                                                                                                  Evidenced by an




                                                                                                                                                                                                              Over Property.
    Component




                                                                                                                                                           Supply
  CBP                 5                       2                               8                       6                     8                            13                         0                          5
  CIS                 3                       0                               4                       3                     7                             9                        10                          7
  ICE                 6                       2                               4                       5                     8                            10                         4                          1
  TSA                 0                       3                               1                       0                     7                            13                         2                         12
 USCG                 3                       2                               3                       4                     6                             9                         3                          6

* Note: Individual post payment audit reports were missing multiple pieces of information, so “type of
insufficient documentation” numbers are greater than 75 (the number of reports analyzed).

More specifically, for the post payment audit reports examined, transactions’ supporting
documentation did not meet the following OMB requirements:

                Twenty-four percent did not include purchase card worksheets.
 

                Thirty-nine percent did not have approving official approval for the purchase. 

                Thirty-six percent did not have evidence that funds were available prior to the 

                purchase. 

                Thirty-one percent did not have purchase amounts on the invoice that matched the 

                purchase amounts on the purchase card worksheets. 

                Thirty-three percent did not provide evidence that an independent third party 

                signed to accept the merchandise or service. 

                Forty-nine percent did not provide evidence that the component established 

                accountability over property. 





                                                                            Use of DHS Purchase Cards 


                                                                                                   Page 20
 

Appendix E
Purchase Card Categories of Transaction Definitions

Blocked Merchant Category Codes (MCCs) – MCCs that DHS cardholders are
blocked from using. Appendix D of the DHS Purchase Card Manual provides a list of
blocked MCCs. All cards shall be issued with the DHS mandatory blocks in effect.

Merchant Category Codes (MCC) – A categorization of the type of business the
merchant is engaged in and the kinds of goods and services provided.

Recommended Blocked MCCs – Appendix E of the DHS Purchase Card Manual
provides a list of recommended blocked MCCs. All components shall consider the
recommended blocked MCCs for implementation as a safeguard against questionable
transactions.

Single and Monthly Purchase Limits – Each Head of the Contracting Activity or
designee should establish a stratified single and monthly purchase limit matrix, and each
component program coordinator shall assign each cardholder spending limits consistent
with his/her experience or position requirements to mitigate financial risk to the
government. Before completing an order, the cardholder must ensure that the purchase is
within the cardholder’s single purchase limit and will not result in the cardholder
exceeding the monthly limit.

Splitting Purchases – Breaking up a larger or higher value purchase (or requirement) so
it “fits” under the single-purchase limit established for the cardholder, such as by placing
two or more separate orders for a supply/service to avoid exceeding the single-purchase
or competition threshold. This practice is strictly prohibited.

Source: DHS Purchase Card Manual (October 2009)




                                   Use of DHS Purchase Cards 


                                            Page 21
 

Appendix F
OIG Data Mining Process

            Using the department Agency Program Coordinator’s access to the bank
            vendor’s purchase card data system, we pulled raw transaction data from
            July 1, 2009, to May 1, 2010, for CBP, CIS, ICE, TSA, and USCG, the five
            largest DHS components using purchase cards. The purchase card data
            consisted of more than 900,000 transactions valued at over $392 million.

            We initially data mined this population based on DHS Purchase Card
            Manual’s transaction requirements, including ­

                   Mandatory Blocked MCCs
                   Recommended Blocked MCCs
                   Transactions Over the Single-Purchase Limit
                   Transactions Over the Purchase Card Limit
                   Transactions Occurring on Weekends

            We identified the following transactions that occurred across the five
            largest DHS components, as shown in table 4.

            Table 4. First Round of Data Mined High-Risk Transactions

                                                            TOTAL
                                                                           TOTAL
                CATEGORIES OF TRANSACTION                 HIGH-RISK
                                                                           VALUES
                                                        TRANSACTIONS
            Blocked MCC Codes                                  177         $     42,352
            Recommended Block MCC Codes                      225,741       $ 96,367,269
            Over Single Purchase Limit                        1,543        $ 10,443,347
            Over Purchase Card Limit                            99         $ 1,465,846
            Weekend Usage                                     65,283       $ 15,846,936

            DHS program managers informed us that they do not hold components to
            the DHS Purchase Card Manual’s published Mandatory Blocked and
            Recommended Blocked MCCs lists. However, components are allowed to
            bypass most mandatory blocked MCC requirements using “MCC Group
            Lists” that are approved by the department and assigned to individual
            cardholders. Upon further review, we found that component coordinators
            were assigning multiple “MCC Group Lists” to individual cardholders,
            removing almost all blocks and allowing cardholders to make purchases
            from almost any merchant.

            DHS program managers also explained that they allow component
            coordinators to bypass any blocked MCC codes based on “operational
            necessity.” After one bypass, policy requires that component coordinators
            request approval from the department program coordinator when there is a
            need to force another transaction. However, there are no digital controls
            to monitor or stop component coordinators from continually bypassing

                               Use of DHS Purchase Cards 


                                        Page 22
 

Appendix F
OIG Data Mining Process

            blocked MCCs. As a result, DHS had in effect removed any mandatory
            blocks, so cardholders can complete purchase card transactions for any
            goods or services.

            Receiving copies of the “MCC Group Lists,” we reran our data mining,
            taking into consideration the new “allowable transactions,” with the results
            shown in table 5.

            Table 5. Identified High-Risk Transactions

                                                                       TOTAL
                                                                                       TOTAL
                      CATEGORIES OF TRANSACTION                      HIGH-RISK
                                                                   TRANSACTIONS        VALUES

            Always Excluded MCCs                                          78               $30,146
            Blocks By MCC GROUP LISTS                                    3,500          $1,808,673
            Over Single-Purchase Limit                                   1,543         $10,443,347
            Over Purchase Cards Total Limit                               99            $1,465,846
            Weekend Usage                                               65,283         $15,846,936
            TOTALS                                                      70,503         $29,594,948

            We took a sample of these high-risk transactions based on MCCs, goods
            and services acquired, cardholder locations, and the transaction dollar
            amounts. We stratified our sample by the number of components’
            transactions to avoid selecting a disproportional number of reviews for a
            particular component. In the current DHS post payment audit review
            process, the methodology used selects a random sample of 45 transactions
            for each component without regard for the component’s number of
            transactions.

            We reviewed 201 transactions valued at more than $184,000 for purchases
            made by 21 cardholders assigned to five components at four different
            locations, as shown in table 6.

            Table 6. Targeted High-Risk Purchase Card Transactions

                                                 Number of     Number of
              Locations       Component                                          Dollar Totals
                                                Cardholders   Transactions
                Miami            USCG                  5          63             $38,128.61
                Miami             CBP                  1          10              $4,830.49
                 DC               CBP                  4          35             $60,550.40
                 DC               ICE                  3          15             $31,732.47
               Boston            USCG                  4          45             $35,509.95
               Chicago            CIS                  2          16              $9,738.15
               Chicago            TSA                  2          17              $3,801.92
              TOTALS                                   21         201            $184,291.99


                                Use of DHS Purchase Cards 


                                          Page 23
 

Appendix F
OIG Data Mining Process


            We visited the cardholders’ offices, met all 21 cardholders or their
            respective approving officials, and gathered all available supporting
            documentation from their purchase card transaction files. While on site,
            we made every effort to observe all evidence of goods or services
            purchased to determine their location and use.




                              Use of DHS Purchase Cards 


                                       Page 24
 

Appendix G
Major Contributors to this Report

                    Linda Howard, Director
                    Andrew Smith, Audit Manager
                    Kathleen Hyland, Auditor
                    Virginia Feliciano, Auditor
                    David Lu, Program Analyst
                    Katherine McPherson, Independent Referencer




                              Use of DHS Purchase Cards 


                                       Page 25
 

Appendix H
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                 Use of DHS Purchase Cards 


                                          Page 26
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
